                                                                         \~)
s. DEPARTMENT OF COMMERCE



                            Office       of Inspector General
                                                                         r\t:\
                                                                           ~Of




                   NATIONAL INSTITUTE



STANDARDS AND TECHNOLOGY

  Advanced Techno /0 gy Pro gram A ward
Process Promotes Merit-Based Decisions
                                 11. 612            CFDA No.




Audit Report No. DEN- 10960-                              0001   March   1999




                                       PUBLIC RELEASE




                                     Office of Audits , Denver Regional Office
\-...-- ,'   ~ '"                                                  /:~~
                                                                                                                                  f/.z6(9r
                                                                                    UNITED STATES DEPARTMENT OF COMMERCE



                      March 31 ,   1999
                                                                   \JJ)             Office of Inspector General
                                                                                   Washington, D. c.   20230




                    " MEMORANDUM FOR:                 Raymond G. Kammer
                                                      Director
                                                      National Institute of Standards and Technology


                     FROM:                            Johnnie I!. Frazier
                                                      Acting Inspector G

                     SUBJECT:                         Advanced Technology Program Award Process
                                                                                                          -U
                                                        Promotes Merit-Based Decisions
                                                      CFDA No.   11. 612
                                                      Pinal Audit Report No. DEN- 1O960- 0001
                    The Office of Inspector General has completed a perfonnance audit
                                                                                                   of the National Institute of
                    Standards and Technology s solicitation, review, and selection process for its discretionary
                    cooperative agreements awarded in fiscal year 1997 under the Advanced Technology Program
                    classified as No. l1.6~2 in the Catalog of Federal Domestic Assistance.
                    attached. The executive summary is on page i and
                                                                                                        The final report is
                                                                                    a recommendation for NIST's action is on
                    page 13 of the report:

                    NIST agreed with the recommendation in our draft audit report.
                                                                                  Its response is summarized in
                    the executive summary, and we have attached the complete response as an appendix to the report.

                    Please provide your audit action plan addressing the recommendation within 60 calendar days
                    accordance with Department Administrative Order 213-                                             , in
                                                                              5. The plan should be in the fonnat
                    specified in Exhibit 7 of the DAO. Should you have any questions regarding the preparation of
                    an audit action plan , please contact William R. Suhre
                                                                           , Regional Inspector General for Audits , at
                    (303) 312- 7650. We appreciate the cooperation extended by your staff during our
                                                                                                        audit.
                    Attachment

                    cc (wIatt):     Dr. Lura Powell , Director, Advanced Technology Program
                                    Linda J. Bilmes , Acting Chief Financial Officer and Assistant
                                     Secretary for Administration
                                    Sonya G. Stewart , Director, Office of Executive Budgeting and
                                     Assistance Management
                                    Susan Sutherland , Acting Director, Office of Executive Assistance
                                     Management
                                    Marilyn- Khan , NIST Audit Liaison
,.   .'                             ' "                               . . .. .. ....... .. .. .. .. . . . . . . . .. .. .......
                                                        ......................................
                                      ........................................................
                                         ......................... .........................                              .. .. .....
                                                                                    . . . . . . . . . . . . . . . .. .. .. . .
                                                                                                                             . .. .. -. . . . ..




           u.S. Department of Commerce                                                                    Report No. DEN- 10960- 0001
           Office oJ Inspector General
                                                                                                                                     March     1999



                                                     TABLE OF CONTENTS



           EXECUTIVE SUMMARY
                                            ..................................................... i
           INTRODUCTION .......................................................

          PURPOSEANDSCOPE




          FINDINGS AND RECOMMENDATION
                                                                ......................................... 7

                    NIST Has Adequately Addressed
                    Prior Audit Report Findings
                                                       .............................................. 7
          II.       ATP Implemented Appropriate Review Criteria. . . . .

          ill.      ATP Established Adequate Evaluation Procedures. . . . . . . . . . . . . . .

          IV.       Solicitation Practices Were Adequate

                    Established Review Procedures Were Followed
                    But a Minor Documentation Deficiency Was Noted. . . .

          VI.       Ranking and Selection Practices
                    Were Adequate

          VII.     A TP Cooperative Agreements and Award
                   Renewals Were Improperly Categorized ....................................

          VIII. Recommendation ......................................................

                            NIST' s Response to the Draft Audit Report
                                                                                                                                  ' . . . . . 13
                            OIGCommentsonNIST' sResponse                   .................................

          APPENDIX I               A TP Procedures for Solicitation , Review and Selection of A wards

          APPENDIX II             NIST Complete Response to the Draft Audit Report
.,   .\




             u.s. Department of Commerce                                                                              Report No. DEN- JO960-9- 0001
             Office oJ Inspector General
                                                                                                                                       March   1999


                                                                   EXECUTIVE SUMMARY

             The Office of Inspector General conducted an audit of the fiscal year 1997 criteria, procedures
           , and practices for soliciting, reviewing, and selecting applications for financial assistance under
             the National Institute of Standards and Technology s (NIST) Advanced Technology Program
            (A TP), classified as No. 11.612 in the
                                                                             Catalog of Federal Domestic Assistance           (CFDA). The
            audit was conducted as part of a Department-wide review of Commerce s discretionary financial
            assistance programs initiated at the request of the Chairman of the Senate Committee on
            Commerce, Science , and Transportation.

            Discretionary financial assistance programs are those programs
                                                                            for which federal agencies have
            the authority to independently detennine the recipients and funding level of awards. These
            programs involve a significant portion of the Commerce Department' s budget and operations
            approximately $1 billion annually. If not properly administered, they are susceptible to fraud
            waste , and misuse of funds.

            NIST' s ATP is a cost-sharing program designed to assist U. S. industry to pursue high-risk
            technologies with significant broad- based commercial and economic benefits    for the nation.
            A TP enables award recipients to pursue research and development projects that, because they are
            high-risk, are unlikely to be developed without federal government fmancial support. In fiscal
            year 1997 , NIST awarded 64 ATP cooperative agreements , totaling $61.8 million , from the
            seven 1997 competitions , and also awarded eight cooperative agreements , totaling $5. 2 million
            from a 1996 competition that were not funded in fiscal year 1996 due to budget constraints.
            Additionally, in fiscal year 1997 , NIST processed 74 renewals of prior year cooperative
            agreements totaling $149. 8 million.

           As part of our review, we followed-up on NIST' s implementation of recommendations included
           in three prior Office of Inspector General (OIG) audit reports and a General Accounting Office
           (GAO) audit report concerning NIST's administration of the ATP award selection process.
           found that NIST adequately addressed the specific audit report findings including NIST' s failure
           to: (1) document the bases for selecting successful proposals , (2) document the rationale by
           which Source Evaluation Boards (SEB) overturned recommendations of proposal reviewers
                                                                                                         , (3)
           adequately track award contingencies , and (4) sufficiently involve grant office personnel in the
           review process (see page 7).

            We examined NIST' s criteria, procedures and practices for the solicitation , review , and selection
            of ATP applications and found that they met the Department's minimum requirements and were
            generally adequate to promote merit- based decisions. Specifically, our audit disclosed that
          , NIST:

                      Used merit- based technical and public policy criteria , which were consistent
                      with the objectives of the program , to evaluate applications and which addressed
                      the criteria for making awards set forth in the A TP statute (see page 9).

                      Established adequate procedures for reviewing A                                  TP proposals (see page 10).




                                                                                        -1-
, "   .,                                                 ------
      I .




             u.S. Department of Commerce                                              Report No. DEN- 10960- 0001
             Office of Inspector General
                                                                                                      March   1999


                     Followed established procedures in soliciting applications for ATP awards.
                     Procedures used were sufficient to obtain a nationwide response from eligible
                     applicants (see page 11).

                     Followed established procedures for reviewing applications , with the exception
                     of a minor documentation deficiency noted below. We believe NIST' s efforts
                     to enhance the independence and objectivity of the A TP proposal review process
                     by using a mix of reviewers from outside the Department, as well as NIST
                  , personnel , to review A TP proposals constitutes a best practice that should be used in
                     other funding programs as appropriate (see page 11).

                     Followed established procedures for ranking and selecting applications for
                     funding under the A TP that were sufficient to satisfy statutory, departmental
                     and NIST requirements (see page 12).

            At the same time , we identified opportunities for improving the ATP' s award procedures and
            practices., We found that NIST:

                    Had a minor deficiency in documenting the review of applications for A
                    awards. Generally, established procedures were sufficient to provide an
                    independent and qualified competitive review of each applicant However
                    the program staff failed to mention 12 proposals submitted for four ATP
                    competitions in the Source Evaluation Board (SEB) minutes. The minutes
                    document official decisions of the SEB for all proposals submitted under
                    A TP competitions. This issue was brought to the program staff s attention
                    and they have revised their procedures to prevent future occurrences (see
                    page 11);

                    Reported three new A TP cooperative agreements and six A TP
                    award renewals under the incorrect CFDA code number during fiscal year
                  . 1997. As a result , the Department' s Office of Executive Assistance Manage-
                    ment received inaccurate data for inclusion in its database system used to
                    report on and track awards (see page 13).

            We recommend that the NIST Director ensure that all future A TP cooperative agreem~nt award
            and renewal actions are reported under the correct CFDA number (see page 13).



            NIST agreed with the recommendation in our draft audit report. However, NIST requested that
            we (1) delete several minor findings as unrelated to the scope of our audit and (2) make
            clarifications to information presented in the report. NIST also requested that we reduce the
            number of proposals identified in our finding as not being mentioned in the respective SEB
            minutes , since 7 of the 12 proposals were duplicates that did not need to be reflected in the
            minutes.




                                                            -11-
        ",

        .. t
. . J
               u.s. Department oJCommerce                                               Report No. DEN- 10960- 0001
               Office of Inspector General                                                               March 1999


               First and foremost, the findings concerning follow-up on OIG and GAO reports are not beyond
               the scope of our audit and have not been deleted. It is standard OIG practice to follow-up on
               previous audit report findings and recommendations that could affect the objectives of our
               current audit, to detennine if management has taken corrective action. Moreover, we believe the
               prior OIG and GAO findings and recommendations on the ATP award selection process were the
               impetus for many ofNIST' s current procedures and practices.

               Regarding NIST' s specific suggestions to further clarify points included in the draft audit report
               we revised the wording in various sections of the final report, as appropriate. to clarify and more
               accurately reflect the information presented. We did not, however, modify the number of
               proposals identified as improperly excluded from SEB minutes. To maintain the integritY and
               consistency of the SEB minutes, final detenninations and actions for all A TP proposals that are
               assigned tracking numbers should be reflected in the minutes. As we noted in the audit report
               NIST has already instituted procedures to correct this finding. NIST' s response is summarized
               starting on page 13 , and we have included its complete response as Appendix II:~ '




                                                              -lll-
, .,   . '




             . u.s.   Department oJ Commerce                                               Report No.   DEN- 10960- 0001
               Office oJ Inspector General                                                                    March 1999


                                                                            INTRODUCTION
               The National Institute of Standards and Technology s (NIST) primary mission is to promote
             , U. S. economic growth by working with industry to develop and apply technology,
               measurements , and standards. To accomplish a portion of its mission , NIST administers the
              Advanced Technology Program (ATP), classified as No. 11.612 in the
                                                                                           Catalog of Federal
              Domestic Assistance  (CFDA). The program s objectives , as stated in the CFDA, are to "work in
              partnership with industry to foster the development and broad dissemination of challenging,
              high-risk technologies that offer the potential for significant, broad-based economic benefits for
              the nation.

              The Omnibus Trade and Competitiveness Act established A TP for the purpose of assisting u.S.
              businesses in creating and applying the generic technology and research results necessary to
              commercialize significant new scientific discoveries and technologies rapidly and to refine
             manufacturing technologies. Under ATP , NIST provides financial ,assistance, through
             cooperative agreements , to single companies and joint ventures to pursue these high-risk
             technologies. The program enables award recipients to pursue research and development
             projects that, because they are high-risk, are unlikely to be developed without federal financial
             support. ATP conducted six focused competitions in fiscal year 1997: (1) motor vehicle
             manufacturing technology, (2) infonnation infrastructure for healthcare, (3) digital data storage
             (4) technologies for the integration of manufacturing applications , (5) c()mponent-based
             software, and (6) tissue engineering. Additionally, a seventh general competition was conducted
             to capture all proposals submitted that could not be categorized in one of the six focused
             competitions.

             General infonnation governing the seven fiscal year 1997 ATP competitions was published in
             the Federal Register   on December 4 , 1996 , December 30 , 1996 , and February 19 , 1997. In
             fiscal year 1.997 , NIST awarded 64 ATP cooperative agreements
                                                                                , totaling $61.8 million , from
             the seven 1997 competitions , and also awarded 8 cooperative agreements , totaling $5.
                                                                                                       2 million
             from a 1996 competition that were not funded in fiscal year 1996 due to budget constraints.
             Additionally, in fiscal year 1997 , NIST processed 74 renewals of prior year cooperative
             agreements totaling $149. 8 million.

             Discretionary assistance programs are those for which federal agency officials have the authority
             to decide (1) which eligible applicants will receive awards , and (2) how much will be a~arded.
             Technically, all Commerce financial assistance programs are discretionary, rather than
             entitlement programs. However, the authorizin g legislation for the programs provides for
             varying degrees of discretion in making awards. The use of competitive selection procedures is
             generally agreed to be the most effective method of ensuring that financial assistance awards are
             made on the basis of merit. One of the primary purposes of the Federal Grant and Cooperative
             Agreement Act (31 V. C. 96301) is to encourage competition in the award of federal financial
             assistance to the maximum extent practicable in order to fairly and objectively identify and fund
             based on merit, the best possible projects proposed by applicants , and thereby more effectively
             achieve program objectives.
u.s. Department oJCommerce                                               Report No. DEN- 10960- 0001
Office of Inspector General
                                                                                          March 1999

The Office of Management and Budget (OMB) has issued guidelines for administering
competition-based financial assistance programs for use by federal agencies. An interagency
study group, convened in 1979 by OMB to examine competition in flllancial assistance
programs , determined that financial assistance award processes , to ensure effective competition
should include three basic elements. These elements , which were discussed in OMB'
                                                                                         s June
1980 report Managing Federal Assistance in the 1980's,
                                                         and are still applicable , include:
       Widespread solicitation of eligible applicants and disclosure of essential
       application and program infonnation in written solicitations;

       Independent application reviews that consistently apply written program
       evaluation criteria; and

       Written justification for award decisions that deviate from recommenda-
       tions made by application reviewers.

Also , OMB has issued the following policies and procedures to be followed by federal agencies
in administering their financial assistance programs:

       OMB Circular A- Federal Domestic Program Information implements
       the Federal Program Infonnation Act (P. L. 95- 220) requiring agencies to
       systematically and periodically collect and distribute current infonnation to
       the public on federal domestic assistance programs , which is accomplished
       through the semiannual publication of the CFDA.

      OMB Circular A- I02 Grants and Cooperative Agreements with State and
      Local Governments,    requires agencies to provide the public with advance
      notice in the Federal Register, or by other appropriate means , of their intended
      funding priorities for discretionary assistance programs unless such priorities
      are established by federal statute. Under A- 1O2 , when time pennits , an agency
      must provide the public with an opportunity to comment on funding priorities.
      Finally, A- 1O2 requires all grant awards over $25 000 to be reviewed for
      consistency with agency priorities by a policy level official.

      OMB Circular A- II 0 Uniform Administrative Requirements for Grants and
      Agreements with Institutions of Higher Education, Hospitals, and Other
      Non-Profit Organizations requires agencies to provide the public with advance
      notice of their intended funding priorities for discretionary assistance programs
      unless such priorities are established by federal statute.

      OMB Circular A- 123 Management Accountability and Control implements
      the Federal Managers Financial Integrity Act (P. L. 97- 255) requiring
      agencies to establish management controls for federal programs and opera-
      tions , including financial assistance programs , that provide reasonable
      assurance that activities are effectively and efficiently managed to achieve
      agency goals.
u.s. Department of Commerce                                               Report No. DEN- 10960-9- 0001
Office oJ Inspector General
                                                                                           March   1999

Commerce has relied on these guidelines in developing and issuing policies and procedures for
its discretionary funding programs. Department Administrative Order (DAO) 203,.26
Department of Commerce Grants Administration requires that (I) all Commerce discretionary
grant program awards be made on the basis of competitive reviews unless a special waiver is
obtained, (2) competitive review processes meet minimum standards outlined in the DAO
                                                                                            , and
(3) all Commerce agencies publish , at least annually, a notice in the Federal Register
announcing the availability of funding, soliciting award applications , and specifying the criteria
and the process to be used in reviewing and selecting applications for funding.

The chart presented on the following page depicts the basic process and controls for the
solicitation , evaluation , and selection of fmancial assistance awards as set forth in DAO 203-
                                                                                                 26.
The processes we reviewed during our audit are color coded for this chart and the NIST process
chart located in Appendix I.
, "               ----------
                     - - --
                     --,'         --------
                         - - -- ------
                                     - ------------
                                        - -- - --- - ---~--
                                          - - ---------------------------
                                                     ---- - - - - -- -..
                                                                  -- -- - -- -----
                                                                      ---      -- - - -
                                                                                  ,. -     - --        ~--                  ---, ." . -.-,,   .. '..




      , u.s.   Department of Commerce                                                                             Report No. DEN- 1O96Q- 0001
        Office oJ Inspector General
                                                                                                                                   March 1999




                        Department of Commerce Financial Assistance Awards Process

                LEGISlAlIVE AI1THORITY &
                APPROPRIATQIS REOUIABIEHTS




                                                                                         PREA\/\WID SCREENHG

                                                                                         . OIIIc8o1-"~--                   F1IWICW.
                                                                                         . 0IIIc8 oIlnopecIor
                                                                                                                           ASSISTANCE ,
                                                                                                                           REVIEW IIOAAD ,
                                                                                                       IIeQgoouncI CIIeQ
                                                                                           - CnMIit--
                                                                                           - o.-.g Audit

                                      SOLICITATION
                                                       REVIEW


                                                        P8noI(a)
                                                                      0..--
                                                                     SEI.ECT1ON                      PREAWARD SCREEHIHG

                                                                                                                           SIGNEO BY GRANT



                                              ~:itF"
                                                       . Numeric-"
                                                                      6;:::.                         . SuIpenoiona &
                                                                                                             "'-"" ""-'Y
                                                                                                                           OFFICER
                                                                                                                           OR DESIGNATED
                                                                                                                           OFFICIAl..
  u.s. Department of Commerce                                              Report No. DEN- 10960- 0001
  Office oJlnspector General
                                                                                            March 1999

                                      PURPOSE AND SCOPE
   This audit was conducted as part of a comprehensive review of the Department of Commerce
  discretionary funding programs initiated at the request of the Chainnan of the Senate Committee
  on Commerce, Science, and Transportation. The Chainnan requested that the Inspectors General
  of the Departments of Commerce and Transportation and the National Science Foundation
  review the discretionary funding programs of their respective agencies to assess the manner in
  which discretionary funding decisions are made. More specifically, the Chainnan requested that
  each IG review and report on the criteria developed, either statutorily or administratively, to
  guide agency officials in making discretionary spending decisions , and on the extent to which
  the criteria are appropriately applied.

 We are conducting our Department-wide review in two phases: a survey phase (completed), and
 an individual program audit phase (ongoing). During the survey phase, we identified and
 examined the body of laws , regulations , and other guidance applicable to the administration of
 federal financial assistance programs. We also examined the authorizing legislation for each
 Commerce financial assistance program and classified each program as either a " full discretion
 program or a " limited discretion" program , based on the extent to which the legislation limits the
 agency s authority to independently detennine the recipients and funding levels of the awards
 made under the program. Finally, we examined legislation related to the Department' s fiscal
 year 1997 appropriations to identify any legislatively mandated projects.

 During the second phase of our review, we are conducting individual audits of the award
 solicitation , review, and selection processes of each program we have classified as a "full
 discretion" program, including the NIST A TP. Weare evaluating the adequacy of each
 program s established award criteria and procedures for evaluating individual applications. For
 those programs with procedures deemed to be adequate, we are ascertaining whether those
 procedures were followed in making awards in fis~al year 1997. Finally, we are examining the
 legislatively mandated projects identified for each program and detennining their significance
 and impact on fiscal year 1997 award decisions. We plan to issue individual reports , with any
 appropriate recommendations , on each program, followed by a capping report summarizing the
 results of the individual audits and providing recommendations for the Department and its
 bureaus.

On July 21 , 1998 , the Acting Inspector General and the Chief Financial Officer and Assistant
Secretary for Administration testified before the Senate Commerce , Science , and Transportation
Committee on the Department's discretionary funding programs. The Acting IG reported on the
results ofthe survey phase of the GIG' s review , and discussed some of the preliminary
observations from the individual program audits.

This perfonnance audit focused on funding decisions made during fiscal year 1997 under A
                                                                                              TP.
, Specifically, we:

        Reviewed the authorizing legislation and infonnation summarized in the
        CFDA to identify criteria for funding decisions.
. "   . .




            u.s. Department of Commerce                                              Report No. DEN- JO960- 0001
            Office of Inspector General                                                               March 1999

                    Reviewed policies and procedures for soliciting and reviewing proposals
                    and tanking and selecting applications for funding (see Appendix I for flow-
                    chart of process). We also reviewed NIST' Administrative Manual          as it
                    applied to the solicitation , review, and selection process and assessed
                    whether it was in accordance with Office of Federal Assistance Financial
                    Notice No. 17 Department of Commerce Guidelines for the Preparation of
                    Federal Register      Notices Announcing the Availability of Financial Assist-
                    ance Funds       Requestsfor Applications;  15 C. R. Part 295,   ATP Final
                    Rule;    and DAO 203- Department of Commerce Grants Administra-
                    tion.

                    Compared NIST' s procedures with its practices to detennine if the process
                    contained adequate internal controls to provide for competitive, merit-
                    based awards.


                    Examined pertinent documents in individual program award files to deter-
                    mine if departmental and NIST policies and procedures were followed.

                    Interviewed NIST program office officials concerning NIST' s solicitation
                    review, and selection procedures.

                   Examined fiscal year 1997 appropriations legislation to identify legislatively
                   mandated projects for this program. None were found , therefore, there is no
                   discussion in the body of the report on this area.

                   Reviewed prior OIG and General Accounting Office (GAO) audit reports
                   on the A TP award selection practices.

            We did not rely upon computer-based data supplied by NIST and the Department' s Office of
            Executive Assistance Management (OEAM) during the audit, and cited in the report, as a basis
            for our audit findings and recommendations. Consequently, we did not conduct tests of either
            the reliability of the data, or the controls over the computer-based system that produced the data.

            We perfonned the audit fieldwork at NIST's ATP Program Office in Gaithersburg, Maryland
            during March and September 1998. We conducted the audit in accordance with generally
            accepted government auditing standards , and under the authority of the Inspector Geneml Act of
            1978 , as amended , and Department Organization Order 10- , dated May 22 , 1980 , as amended.
                                                                     ,"



  u.s. Department of Commerce                                               Report No. DEN- 1O960- 0001
  Office oJ Inspector General
                                                                                             March 1999

                                FINDINGS AND RECOMMENDATION

 We found that ATP' s criteria, procedures , and practices for the solicitation , review
                                                                                         , and selection
 of ATP award recipients generally complied with statutory, departmental , and NIST
 requirements and appeared designed to result in merit- based awards. Also, NIST has taken
 appropriate steps to improve the A TP award selection process , based on recommendations in
 prior OIG and GAO audit reports. We did, however, fmd that NIST failed to mention
 12 proposals submitted under four 1997 ATP competitions in the Source Evaluation Board
 (SEB) minutes. The SEB minutes are used to document official decisions of the SEB for all
 proposals submitted under A TP competitions. Additionally, A TP reported three new A TP
 cooperative agreements and six ATP award renewals under the incorrect CFDA code number
 during fiscal year 1997. As a result, OEAM received inaccurate data for inclusion in its database
 system used to report on and track awards.

 With the exception of the above-noted findings , we found that NIST has adequate procedures for
 reviewing and approving A TP recipients for federal financial assistance. We also found that
 NIST has adequate procedures for renewals of A TP awards and that NIST properly followed
 them.

           NIST Has Adequately Addressed
           Prior Audit Report Findings

We reviewed three prior OIG audit reports and a prior GAO report concerning NIST'
administration of the ATP award selection process. In July 1995 , the OIG reported that NIST
had not maintained adequate documentation of the bases for its determinations and selections of
recipients under the fiscal year 1994 ATP competition. ' Specifically, the OIG found that NIST
(1) maintained documentation of its reasons for rejecting proposals, but not the bases for
selecting successful proposals , and (2) did not document the rationale by which SEBs overturned
recommendations of proposal reviewers. The report stated that a lack of internal guidelines for
A TP SEBs were the cause for the inadequate documentation in the selection process.
                                                                                    The report
noted that NIST was highly responsive to our concerns and immediately initiated procedures to
correct the deficiencies.


A second OIG audit report, issued in February 1996 , highlighted NIST' s efforts in responding
quickly to the earlier OIG report findings and recommendations related to improving
documentation of the award selection process. 2 The report states In this second review
                                                                                          , we
found that ATP' s selection , monitoring, and evaluation processes are significantly improved
from the program s earlier years.




            The Advanced Technology Program Must Improve Documentation o/Selection Decisions
TTD- 7074- 0001 , July 1995.

           ATP Has Improved ProceduresJor Selecting, Monitoring, and Evaluating Projects
TTD- 8089- 0001 , February 1996.
, "




       u.s. Department oJ Commerce                                                  Report No. DEN- 10960-9- 0001
       Qffice oJ Inspector General                                                                   March   1999

       A third OIG audit report , issued in July 1997, examined the fiscal year 1995 ATP award
       competitions. 3 The OIG found that NIST issued many ATP cooperative agreements with
       contingency clauses , rather than waiting for outstanding issues to be resolved prior to the award
       date. The OIG found that NIST rushed the awards through the process due to concerns about
       current and future program funding, and that NIST prematurely notified successful applicants
       that they had been selected to receive A TP awards. The notifications were premature because
       the business reviews of the A TP proposals had not been completed.

       Further compounding this problem was the fact that NIST did not have a system to track
       contingencies and verify that they had been satisfied. The July 1997 report highlighted an
       instance where NIST' s failure to follow up on a contingency allowed a recipient to receive
       approximately $58 000 from NIST prior to resolving an award contingency, even though the
       award specifically stated that no federal funds were to be disbursed until the contingency was
       satisfied.

      The July 1997 audit report recommended that NIST (1) announce winners of ATP award
      competitions only after the grants office has completed necessary review and processing tasks
      (2) appoint grants office personnel to ATP SEBs to demonstrate the importance of their input
      and allow them to complete their work earlier in the process, and (3) develop a system to track
      award contingencies. NIST generally agreed with the audit report recommendations and agreed
      to implement the first and third recommendations. Additionally, NIST instituted procedures that
      involve grants office personnel earlier in the review process , thereby implementing the intent of
      the second recommendation.

      We also reviewed a prior GAO audit report entitled Information on the Advanced Technology
      Program 1997 Award Selection dated February 24 , 1998. 4 The purpose ofGAO' s audit was
      to detennine what infonnation NIST used to detennine whether (1) ATP applicants could
      probably find funding elsewhere , or (2) a delay in the project' s progress would not be a serious
      national economic concern. NIST had asserted to Congress that it rejected proposals if either
      condition applied.

      GAO found that NIST used infonnation contained in the proposals and gathered during oral
      reviews with applicants to detennine whether applicants could probably find funding elsewhere.
      The GAO audit report noted that, as of December 1997 , NIST required ATP applicants to state
      what efforts they have made to secure at least partial private funding of their ventures before
      applying to ATP. GAO found that, although proposal reviewers were asked to evaluate various
      economic aspects of the project, the ATP office did not define what it considered to be a serious



           , 3
                 Advanced Technology Program Needs Financial and Management Improvements
      ENT- 8984- 0001 , July 1997.

                 Federal Research: Information on the Advanced Technology Program     1997   Award Selection
      GAO/RCED- 98- 82R, February 1998.
, .                                ,"



        u.s. Department oJ Commerce                                              Report No. DEN- 1O960-9- 0001
        Office of Inspector General
                                                                                                    March   1999

       national economic concern. Therefore , GAO was unable to detennine how reviewers
       detennined that a delay in the project' s progress would not be a serious national economic
       concern.

       The Secretary of Commerce responded to GAO' s findings in a letter dated February 27
                                                                                                , 1998.
       The Secretary clarified areas of the GAO report dealing with ATP' s detennination of whether
       projects pose a " serious national economic concern. " The Secretary pointed out that NIST does
       not assess whether funding projects will pose a. serious national economic concern;
                                                                                            " rather
       NIST' s review procedures are designed to assess whether a project has the potential to provide
        broad-based economic benefits to the u.S. " The procedures to which the Secretary refeITed are
       included in the ATP selection criteria, in 15 C. R Part 295. 6. We follnd that NIST's review
       procedures adequately address the issue of broad-based economic benefits.

       ll.     ATP Implemented Appropriate Review Criteria

       ATP implemented criteria which were consistent with the objectives of the program and
       complied with statutory provisions for making awards, as set forth in the ATP Statute
                                                                                             , 15 V.
       Section 278n. The ATP Final Rules were set out in 15 C. R Part 295.

       15 C. R Part 295.      Criteria for Selection " lists the criteria to be used in evaluating
       applications for A TP awards. Proposals of applicants meeting the basic requirements of the
      competition are reviewed using these selection criteria (weighted as indicated):

      (1)     Scientific and Technical Merit of the Proposal
                                                                (30 percent).
              The quality, innovativeness , and cost-effectiveness of the proposed technical
              program is reviewed and appropriateness of the technical risk and feasibility
              of the project is considered. The technical program is reviewed for coherency
              and clarity of vision of technical objectives. The adequacy of systems- integra-
              tion and multidisciplinary planning, and the potential broad-based impact on
                 S. technology is also considered.

      (2)     Potential Broad- based Economic Benefits of the Proposal    (20 percent).
              The proposal is reviewed for potential to improve U. S. economic growth
              timeliness of the project , degree to which ATP support is essential for the
              achievement of the broad- based benefits , and cost-effectiveness of the proposal.

      (3)    Adequacy of Plans for Eventual Commercialization         (20 percent).
             Evidence is gathered to detennine if the applicant will pursue further develop-
             ment of the technology toward commercial application if the project is successful.
             The proposal is reviewed to identify potential applications of the technology and
             if the applicant has credible plans to assure prompt and widespread use of the
             technology and to ensure adequate protectionofthe intellectual property by the
             participants and , as appropriate , by other U. S. businesses.

      (4)    Proposer s Level of Commitment and Organizational Structure        (20 percent).
             The level of commitment proposed by the applicant is reviewed by evaluating
             contributions ofper~onnel , equipment, facilities , and cost-sharing. Joint ventures
             are reviewed on their structure and the appropriate participation by small
, ,   : ,




              u.s. DepartmentoJCommerce                                                   Report No. DEN- 10960- 0001
              Office oJ Inspector General
                                                                                                           March 1999

                      businesses. Additionally, the appropriateness of subcontractor, supplier, and
                      collaborator participation and relationships , and the clarity and appropriateness of
                      the management plan is reviewed.

             (5)      Experience and Qualifications of the Proposing Organization
                                                                                          (10 percent).
                     The adequacy of the proposer s facility, equipment, design and manufacturing
                     tools , as well as other technical , financial , and administrative resources; the
                     quality and appropriateness of the technical staff to carry out the proposed work
                     and to identify and overcome barriers to project objectives; and the past
                     perfonnance of the company or joint-venture in carrying out similar kinds of
                     effort are considered.

             Based on our review, we concluded that the ATP criteria for evaluating applicants are designed
             to result in merit-based awards and that NIST addressed the criteria for making awards
                                                                                                    , as set
             forth in the ATP statute.

             Ill..   ATP Established Adequate Evaluation Procedures

            Our audit disclosed that NIST established adequate procedures for evaluating A TP proposals.
            DAO 203- , Section 4. 02h. , mandates that, among other things , bureau competitive review
            processes must meet the following requirements:

                     Applications are treated fairly under the review process.

                     Each application receives an independent, objective review by one or more
                     review panels qualified to evaluate the applications submitted under the
                     program.

                     Each review panel uses the selection criteria cited in the application solicita-
                     tion notice.


            All proposals submitted for A TP funding involve a four:.phase evaluation process based on the
            criteria listed in the ATP Program Rule , 15 C. R. Part 295. This multi-step selection process
            detailed as follows:

            Phase I - All proposals are screened by an SEB assigned to the specific competition for
            confonnance with A TP regulations. Proposals are rejected during Phase I if they are incomplete
            inappropriate for ATP, outside of the technical scope of a focused competition , or not in
            compliance with A TP statute or rules. Proposals meeting Phase I requirements proceed to Phase
            II of the evaluation process.

            Phase II - Phase II involves both a technical and business evaluation of the proposal.
                                                                                                        NIST uses
            independent technical and business reviewers to perform these evaluations.
                                                                                             The key technical
            and business strengths and weaknesses of each proposal and a recommendation are presented to
            the SEB. Upon completing Phase II , proposals rated as "recommended" by the SEB proceed to
            Phase III ofthe evaluation process and are classified as " semifinalists


                                                                                    10-
  u.s. Department oJ Commerce                                                                      Report No. DEN- JO960-9-0001
 Office of Inspector General
                                                                                                                          March   1999

 Phase III - Phase III involves a final scoring and ranking of semifinalist proposals by the SEE.
 Proposers in the semifinalist stage are invited to NIST to participate in an oral review. The oral
 review focuses on detailed technical and business questions , and may subsequently involve a site
 visit to the company. Phase III concludes with the SEB' s recommendation to fund the highest-
 ranking proposals.

 Phase IV - During Phase IV, a selecting official designated for the specific competition selects
 recipients based upon (1) the rank order of the applications on the basis of the selection criteria
 mentioned above, (2) ensuring an appropriate distribution of funds among technologies and their
 applications , and (3) the availability of funds. The decision of the selecting official is fmal. The
 program reserves the right to withhold awards in any case where a search of federal records
 discloses infonnation that raises a reasonable doubt as to the responsibility of the applicant.

 Based on our review, we concluded that NIST established adequate procedures that led to
 competitive, merit-based selections under the seven 1997 competitions.

 IV.     Solicitation Practices Were Adequate

NIST's procedures and practices in soliciting applications for awards under ATP met the
regulatory requirement for public notice. NIST published " Notices of Availability of Funds" for
the seven 1997 ATP competitions in the
                                                                 Federal Register            on December 4 , 1996
December 30 , 1996 , and February 19 , 1997. The                               Federal Register      notices referred applicants to
the ATP Program Rule , 15 C. R. Part 295 , for infonnation oneligibilit)r requirements
                                                                                                                             , and
selection procedures , and directed interested parties to refer to the                              Commerce Business Daily        for
specific ATP instructions and proposal deadlines. In addition to the
                                                                                                       Federal Register     and
Commerce Business Daily                    notices , NIST mailed approximately 40 000 proposal preparation kits
including applications , to companies and individuals. NIST distributed another 5 000 kits
through outreach forums such as technical c~)llferences and seminars. NIST received 565
proposals in response to the seven ATP competitions in fiscal year 1997.

          Established Review Procedures Were Followed
          But a Minor Documentation Deficiency Was Noted

Based on our review, we concluded that NIST followed its established review procedures. NIST
fonned an SEB for each of the seven competitions to review and rank all proposals received.
The SEBs were composed of senior- level scientists , engineers , managers , and specialists with
backgrounds in economics and business. We found that NIST used reviewers from outside the
Department, as well as NIST personnel , to review and rank ATP proposals. We believe NIST'
efforts to enhance the independence and objectivity of the ATP proposal review process by using
outside technical and business reviewers constitutes a best practice that should be used in other
funding programs as appropriate.

We did note , however, a minor discrepancy in documentation for reviews of a small number of
proposals. Specifically, 12 of the 565 proposals received were not mentioned in any of the
respective SEB minutes.




                                                                11-
  u.s. Department of Commerce                                                               Report No. DEN- 1 0960- 0001
  Office oJ Inspector General                                                                                 March 1999

  NIST uses a multi-step system for tracking A TP proposals through the review process and
  documenting decisions regarding the proposals. These steps include initial logging and
  assignment of proposal numbers, entry into the computer database, acknowledging receipt of
, proposals, assignment of technical and business sponsors, assignment of technical and business
  reviewers , recording sponsor recommendations , recording SEB decisions on technical and '
  business summary sheets , and preparing SEB minutes.

 In theory, an examination of the review process should enable the tracking of each proposal from
 the beginning of the first phase of the review process (see discussion ~elow) through the SEB'
 recommendation of whether to fund the proposal by examining the collection of SEB minutes
 for the particular competition under which the proposal was submitted. We tested this process
 and found that 12 proposals were not mentioned in SEB minutes. However, we do not consider
 this to be a serious deficiency because ATP program staff were able to track the 12 proposals in
 the other components of the multi-step system. For its part, NIST recognized the need for
 accurate reporting in the SEB minutes and instituted procedures to ensure that all proposals will
 be mentioned in the respective SEB minutes of future ATP competitions. We commend NIST
 for its prompt attention in addressing this issue.

 VI.        Ranking and Selection Practices
             Were Adequate

 NIST received a $225 million appropriation to manage and fund A TP for fiscal year 1997. In
 response to its Federal Register notice , NIST received 565 proposals.

NIST complied with the Department's requirements for selecting recipients. DAD 203-
Section 4. 02 h. l(f)-(g), establishes procedures to be followed in ranking and selecting
applications for funding, as follows:

            After the review panel has evaluated the applications , the organizational
            unit prepares a ranking of the applications based solely on the evaluations
            of the review panel.

            The organization unit detennines the order in which applications will be
            selected for funding based on the following factors:

                              Any priorities or other program requirements that have been pub-
                              lished in the Federal Register that apply to the selection of appli-
                              cants for new awards , and

                             The ranking of applicants established by the review panel on the
                             basis of the selection criteria.

NIST followed procedures contained in the DAO and NIST
                                                                                       for ranking
                                                                        Administrative Manual
and selecting applicants for each of the seven 1997 A TP competitions. After an SEB
                                                                                         completed
its review and scoring of the applications based on the weighted criteria , an SEB' s recommenda-
tions were presented to the designated selecting official.


                                                           12-
:' ,                                                                                                                                    "',,"" "" ,..,




         Us. Department of Commerce
         Ojfice of Inspector General                                                                 Report   No.    DEN-I0960-9-0001
                                                                                                                           March 1999
         There were three instances when a selecting official did not select applicants recommended by
         an SEB. We found that
                                   NIST  had adequately justified, in writing, the basis for each selectin
         official' s decision not to fund a     sal.ro
         vn. ATP Cooperative Agreements and Award
              Renewals Were Improperly Categorized

        NIST did not report the correct
                                                  Catalog ofF ederal Domestic Assistance
                                                                               category code ~umber
        to OEAM for three new ATP awards and six award renewals in fiscal year 1997.
                                                                                        Asand
        the incorrect reporting, data maintained by OEAM inaccurately portrays the number  a result of
                                                                                               dollar
        value of ATP award actions. OMS Circular A- 89 requires agencies to track data on approved
        federal domestic assistance programs. This data is used to track approvedfedera1 funding in
        each program and should accurately reflect actual activity.

        Additionally, theORAM report, developed by the Federal Assistance Awards Data System
        fiscal year 1997 ATP cooperative agreement actions included'                         , on
                                                                                           several eITOrs, such as:
                  the.same cooperative agreement action listed twice
                  incorrect award numbers
                  awards included that were not funded during fiscal year 1997
                                                                               , and
                  incorrect federal obligation.

       As a result of these eITors. the OEAM listing is not an accurate representation
       ATP cooperative agreement actions.                                                                     of    fiscal year 1997

       NIST   processed 146 A TP cooperative agreement actions during
       $216. 8 million ii1 federal funding.. These figures                fiscal year 1997, totaling almost
                                                           are based on data provided by the ATP program
       office. According to OEAM, however, there were only 142 cooperative agreement actions
       totaling almost $206.4 million, under the CFDA code for ATP
                                                                        - 11.612. The result is an
       underreporting by ORAM of both the number of cooperative agreement actions        and approxi-
       mately $ 10.4 nullion in 1997 ATP funding.

       vIll. Recommendation
       We reconimend that the
                                NIST  Director ensure that all future A TP cooperative agreement award
       and renewal actions are reported under the con-ect CFDA number.

       NIST' s Response to the Draft Audit Report

       NIST recommended that sections of the report
                                                        , including several minor audit findings , be deleted
       because it feels that these sections are unrelated to the scope of the review.

       NISTagreed with the finding and recommendation regarding ATP cooperative agreement award
       and renewal actions reported under the incorrect CFDA number.




                                                                    13-
,~.                                                                                  . .   .. "

         u.s. Department of Commerce
                                                                                   Report No. DEN- 1O960- 0001
         Office oJ Inspector General
                                                                                                    March 1999

        However NIST disagreed with the finding regarding the 12 proposals not mentioned in any of
        the respective SEB mInutes and feels it should be revised. NIST feels that this finding is
        incorrect as there were only five proposals from one competition that had been inadvertently
        omitted from the minutes of an SEB meeting. The other seven proposals were duplicates
        did not have to be identified in the SEB minutes.
                                                                                                   which
                                                         A TP has prepared an addendum to the SEB
        minutes in which the five proposals were considered to reflect the SEB'
                                                                                    s review and decisions.
       NIST suggested that the wording in various sections of the report be revised and stated that the
       draft audit report had incorrectly reported the date and report number for a prior GAO audit
       report entitled Infonnation on the Advanced Technology Program '
                                                                                1997  Award Selection.
       NIST suggested that we revise the final audit report to reflect the correct date and report number.

       OIG      Comments

           , do not agree with NIST' s assertion that certain sections of the report are ,
                                                                                           beyond the scope of
       our review. Under OIG audit guidelines , we follow-up on previous audit report findings and
       recommendations that could affect the current audit objectives to detennine if management has
       taken corrective action. Our follow-up on the past GIG and GAO reports was particularly
       relevant because the prior OIG and GAO findings and recommendations on the ATP award
       selection process were the impetus for many ofNIST' s current procedures and practices.
       Therefore , we did not revise the report as requested by NIST.

      NIST also disagreed with the report finding that 12 proposals were not mentioned in any of
      respective SEB minutes. The 12 proposals not mentioned in the SEB minutes include 5            the
      inadvertent omissions , 5 duplicates , and 2 transfers to a different ATP competition. NIST argues
      that duplicates do not have to be identified in the SEB minutes. During our review we
                                                                                                noticed
      several instances where duplicates and transfers were , in fact , mentioned in the SEB minutes.
      To maintain the integrity and consistency of the SEB minutes , fmal detenninations and actions
      for all A TP proposals that are assigned tracking numbers should be reflected in the minutes. As
      noted in the audit report, NIST has already instituted procedures to ensure that all proposals will
      be mentioned in the respective SEB minutes of future A TP competitions.

      We revised the wording in sections of the report to more accurately reflect the infonnation
      presented. The draft audit report stated    The minutes are used to track the review process
      all proposals submittedfor the
                                        ATP competitions. The final audit report has been revised to
                                                                                                      for
      read The minutes document official decisions of the SEB
                                                                   for all proposals submitted under
      ATP competitions. Additionally, the draft audit report stated Upon completing Phase II,
      proposals rated as "recommended" by the technical reviewers
                                                                        , business reviewers, and the
      technical/business sponsor proceed to Phase III of the evaluation
                                                                           process.     " The final audit
      report , including NIST's suggested revision , reads Upon completing Phase II, proposals       rated
      as "recommended" by the SEB proceed to Phase
                                                         III of the evaluation process.        NIST
      suggested that we make revisions to the paragraph in the draft audit report detailing the  three-
      step system for tracking A TP proposals through the review process.
                                                                          NIST suggested that we
      mention the numerous steps involved in the receipt and handling of all proposals. When



                                                        14-
      u.s. Department of Commerce                                                                          Report No. l)EN- 10960- 0001
      Office oJ Inspector General
                                                                                                                            March   1999

      appropriate, the final audit report reflects NIST's suggested revisions. Finally, NIST felt that the
      following sentence in the draft audit report was misleading,
                                                                                     million available
                                                                                               NIST had    $225

      for renewal of prior            year cooperative               agreements and new awards ' under the fIScal year
                                                                                                  1999
      ATP competition. " NIST explained that the $225 million was ATP' s entire fiscal year 1997
      appropriated funding level which includes salaries , expenses , and other object class categories.
      We have revised this sentence in the final audit report.

      NIST clarified that business reviews are conducted by business reviewers assigned by the A
      Economic Assessment Office and not by the NIST Grants Office. Since the name of the
      particular NIST organization that conducts the business reviews is not essential to the statement
      in question , it has been deleted.

      NIST suggested that we revise the date and report number for the GAO audit report cited in '
                                                                                                        our
      draft audit report. Upon further examination we determined that the report date and number
      stated in the draft audit report are correct, in,fact, and that NIST' s proposed corrections reference
      GAO testimony related to the GAO report. Therefore , no change was made.




t'"




                                                                              15-
,'




     u.s. DepartmentoJCommerce                                                                              Report No. DEN- 1O960-9-0001
     Office oJ Inspector General
                                                                                                                                         March   1999

                                                                                                                                    Appendix I
                                                                                                                                    Page 1 of2
                  ATP Procedures for Solicitation, Review and Selection of Awards




                                                                                                              Proposals ;we rejected if
                                                                                                              they are:
                                                                                                               -incomplete
                                                                                                               - inappropriate far the .
                                                                                                                ATP
                                                                                                               - outside the technical
                                                                                                                scope of a cornpeIiIion
                                                                                                               - not in compliance with
                                   A TP reIurns pn:IpOSaIlo                                                     A TP sIaIuIe or rules
                                      applicant with an
                                                                                   Yes
                                         ecpIanaIIon


                 Yes
                                                              ~ ldepelldent technical and business
                                                                         waIuaIe the proposals using the
                                                              following aiIeria:

                                                              (1) Scientific and technical merit of the
                                                                 pn:IpOSaI (30%)
                                                              (2) PoIentiaI broad-based economic benefits
                                                                 (20%)
                                                          (3) Adequacy of plans far eventual
                                                             com. nen::iaIizatio.. (20%)
                                                          (4) I'roposer'slevel of commitment and
                                                             orga Iiz:o6.,nstrudure (20%)
                                                          (5) ExperIence and qualifications of proposing
                                                             OIgallizaliolls (10%)




                                                                As$/gned technical and business
                                                                sponsor presents the key \ed1nicaI and
                                                                business strengths and weaknesses of
                                                                each proposal and a reoommendaIion 10
                                                               the SEB
"'




     u.s. Department of Commerce
                                                                     Report No. DEN- 10960-9-0001
     Office of Inspector General
                                                                                      March   1999

                                                                                    Appendix I
                                                                                    Page 2 of 2




                                   4Process   Review Process

                                                               I r
, ' ;. - '                  ~~
                             ..       ~..'" (" '\.
                                  .,.~....




                                                                                          Appendix II
                                                     NlSr         UNITED STATES DEPARTMENT OF COMMERCE
                                                                  National In.tltuta 01 Standarda and Tachnology
                                                                  Galt.! \ersburg. Maryland 20899
                                                                  OFFICE OF THE DIRECTOR
                                  . l:T:J ..
                                   #'4'.. of ,.,




                 MAR 2 It 1999


             MEMORANDUM FOR George E. Ross
                            Assistant Inspector General for Auditing

             From: Karen H. Brown
                   Deputy Director                          \-t
             Subject: NIST Comments to Office of Inspector General Draft Audit Report No. DEN- l 0960-
                      XXX , Advanced Technology Program Awards Were Merit- Based , CFDA No. 11.612


             Thank you for the opportunity to comment on the subject draft audit report dated February 16
              1999. Although the, draft audit report was addressed to Dr. Lura Powell , Director, Advanced
             Technology Program , I am responding to it as it contains findings related to activities performed
             withi~ the National Institute of Standards and Technology (NIST), albeit within two separate
             organizations within the Institute. As Dr. Powell advised you at the exit conference last month , it
             is important that the OIG distinguish between the programmatic operations and functions of the
             NIST Advanced Technology Program (ATP) and the award processing operations perfonned by
             the NIST Grants Office. The draft audit includes recommendations for the ATP Director to
             correct findings related to activities perfonned by the NIST Grants Office. This is not under the
             purview of the ATP Director. We request that OIG audit findings and recommendations on
             activities perfonned by program offices such as A TP or the NIST Grants Office be clearly
             delineated in OIG audit reports , and that they be transmitted to my office for a coordinated
             response.

             We also recommend that the minor findings in your report which do not relate to the scope of the
             review requested by Senator McCain in his December 3 , 1997 , letter to the fonner Inspector
             General be deleted. We take great pride in the competitiveness of the A TP.

             The following specific comments on the subject draft audit report are provided

             EXECUTIVE SUMMARY

             Page i , fourth paragraph , second sentence , (3) references a prior OIG audit finding regarding
             adequate tracking of award contingencies by the NIST Grants Office. Given that prior audit
             findings do not relate to the scope of the review requested by Senator McCain
                                                                                               , they should be
             deleted.
'.
. ,




       Page i , fifth paragraph , first sentence states " . . . found that they met the Department's minimum
       requirements and were generally adequate to support merit- based decisions. " We
                                                                                        question the
       use of the word "generally" in this sentence and recommend that it be deleted. ATP'
                                                                                           s processes
       ensure that all award decisions are made on a merit- based basis.

       Page ii, first full paragraph , first sentence states "At the same time, we identified opportunities
       for improving the program s award procedures and practices. " We take exception to this
       statement and request that it be revised. The procedures and practices which were reviewed by
       the OIG were found to be very effective as discussed by the OIG in the preceding paragraphs on
       page'ii of the draft audit report. It seems inappropriate that the OIG" identified opportunities for
       improving the program s award procedures and practices " especially since there was only one
       minor OIG finding.

       Page ii , first full paragraph, first bullet, third sentence states " . . . program staff failed to mention
        12 proposals submitted for 4 ATP competitions in the Source Evaluation Board minutes.
                                                                                                            " This
       sentence is incorrect as there were only five proposals in one competition which had been
       inadvertently omitted from the minutes of the single SEB meeting in which the five proposals
       were considered. The other seven proposals were duplicates which did not have to be identified
       in the SEB minutes. Additionally, the five proposals which were not identified in the
                                                                                                         minutes
      had the other required documentation , i. , appropriate technical and business reviews
                                                                                                        , technical
      and business sponsor evaluation worksheets , and SEB decisions reflected on the evaluation
      worksheets. A TP has taken the appropriate action to prepare an addendum to the applicable
      minutes ofthe single SEB meeting in which the five proposals were considered to reflect the
      SEB review and decisions. We do note that this finding has no relevance to the review requested
      by Senator McCain , and recommend that it be deleted. If the OIG, however, chooses to include
      the finding in the final audit report , it should be revised to more accurately reflect that there were
      only five proposals in one competition that were not included in the single SEB meeting minutes.

      Page ii , first full paragraph , first bullet , fourth sentence states " The minutes are used to track the
      review process for all proposals submitted for the 7 A TP competitions.
                                                                                     " This statement is
      incorrect. The minutes are not used to track the review process but rather to document the names
      of attendees at the SEB meetings and any official decisions of the SEB
                                                                             , particularly the voting
      results on each proposal considered during the meeting. If the finding is not deleted as -
      recommended in the preceding paragraph when the final audit is issued
                                                                              , we request this
      statement be corrected.

      Page ii , first full paragraph , second bullet , and two follow-on related paragraphs discuss a clerical
      error in data entry perfonned by the NIST Grants Office.
                                                               NIST will take the appropriate action
      to correct this finding. However, we recommend that this finding be deleted as it is unrelated to
      the scope of the review requested by Senator McCain.
. .   .' .,;




                INTRODUCTION

                Page 1 , fourth paragraph , second sentence states "Technically, all Commerce financial assistance
                programs are discretionary entitlement programs. " We question the words "discretionary
                entitlement" as a financial assistance program is either discretionary or an entitlement. We
                suggest that the word " entitlement" be deleted.

                Page 2 , first paragraph , first sentence, states "The Office of Management and Budget (OMB) has
                issued regulations for administering competition-based financial assistance programs for use by
                federal agencies. " The word "regulations" should be revised to read "
                                                                                       guidelines or Circulars
                because OMB has not issued any such regulations. Regulations for administering
                                                                                                    competition-
                based financial assistance programs are issued by individual grantor agencies
                                                                                              , not OMB.
                FINDINGS AND RECOMMENDATION

                Page 7 ,first paragraph , third sentence states " . . NIST failed to mention 12
                                                                                                proposals submitted
                for four 1997 ATP competitions in the Source Evaluation Board minutes.
                                                                                              " This statement is
                incorrect as discussed in our comments above to page ii , first full paragraph
                                                                                                , first bullet, third
                sentence of the draft OIG audit report.

               Page 7 , first paragraph , fourth sentence states "The SEB minutes are used to track the review
               process for all proposals submitted for the seven ATP competitions. " This statement
                                                                                                           is incorrect
               as discussed in our comments above to page ii , first full paragraph , first bullet
                                                                                                   , fourth sentence of
               the draft bIG audit report.

               Page 7 , first paragraph , fifth and sixth sentences state "Additionally, ATP incorrectly reported
               three new A TP cooperative agreements and six A TP award renewals under the wrong CFDA
               code number during fiscal year 1997. Asa result, the Department's Office of Executive
               Assistance Management (OEAM) received inaccurate data for inclusion in its database system
               used to report on and track awards. " The OIG audit report did not identify what report had
               incorrect CFDA code numbers. After several calls to the OIG , we learned that the reporting
               referred to by the OIG was the Federal Assistance Awards Data System (FAADS). All FAADS
               reporting for A TP awards is perfonned by the NIST Grants Office.
                                                                                       NIST will take appropriate
               action to correct this finding and ensure that F AADS reporting is accurately reported in the
               future. As noted above , we recommend that this finding be deleted as it is unrelated to the scope
               of the review requested by Senator McCain.

               Page 7 ,   section I. NIST Has Adequately Addressed Prior Audit Report Findings. We
               question the relevance of going into such detail to discuss audit findings in previously issued
               OIG and GAO audits. Specific sections which we recommend be deleted
                                                                                             follow.
               Page 8 ,first , second , and third paragraphs , discuss audit findings in a July 1997
               been resolved , therefore; they should be deleted. These issues are not related to theaudit which have
                                                                                                        current
:, .




        report. We note, however, that the last sentence in the first paragraph states that the "
                                                                                                 NIST .
        grants office had not completed business reviews of the ATP proposals. " Please be advised that
        business reviews are conducted by business reviewers assigned by the A TP Economic
        Assessment Office. The NIST Grants Office does not conduct business reviews.

        Page 8 , fourth paragraph , first sentence cites the date of the GAO report as February 24
                                                                                                   , 1998
        along with a footnote which identifies the GAO Audit No. as GAO/RCED- 98-
                                                                                          82R. Thecorrect
        date of the audit is February 26 , 1998 and the GAO Audit Report No. is GAOIf-
                                                                                            RCED- 98- 92.
        Page 10,   section ID. ATP Established Ad~quate Evaluation Procedures, Phase II. The
                                                                                                         last
        sentence states ' "Upon completing Phase II , proposals rated as "recommended" by the technical
        reviewers , business reviewers , and the technic~l/business sponsor proceed to Phase III of the
        evaluation process and are classified as "semifinalists. " This sentenceis misleading and
                                                                                                  should
        be revised to more appropriately read Upon completing Phase II , proposals rated as
         reco~ended" by the Source Evaluation Board proceed to Phase III of the evaluation process
        and are . . .

       Page 11 ,
             section V. Established Review Procedures Were Adequate But a Minor
       Documentation Ddiciency Was Noted , second paragraph , second sentence states "
                                                                                                 Specifically,
       12 of the 565 proposals received were not mentioned in any ofthe respective
                                                                                          SEB minutes. " As
       stated earlier in this response to this draft audit , the number " 12" should be revised to "
                                                                                                     5" as the
       other 7 were duplicate proposals and there is no requirement to include duplicates in SEB
       minutes.

       Page 11 , section Y. , third paragraph , describes a three-step system for tracking ATP proposals
       through the review process. The infonnation in this paragraph is misleading. The description in
       this paragraph ofa three-step serial system for tracking ATP proposals is incorrect as ATP does
       not have such a three-step system. There are numerous steps in the receipt and handling of
                                                                                                        all
       ATP proposals. These steps include initial logging and assignment of proposal numbers
                                                                                                    , entry
       into database , acknowledging receipt of proposals , assignment of technical and business
       sponsors , assignment of technical and business reviewers , recording sponsor recommendations
       recording SEB decisions on technical and business summary sheets
                                                                              , preparing SEB minutes , etc.
       Pages 10 and 11 , section III , ATP Established Adequate Evaluation Procedures
       report describes the major steps or four-                                             , oftliis audit
                                                phase evaluation process. Each SEB has an Executive
       Secretary and SEB Chair who are responsible for ensuring proposals received in a competition
       have been considered by the SEB. There are different tools available to the Executive Secretary
       and SEB Chair to ensure that this is accomplished. For example
                                                                       , the Executive Secretary may
       use the EXECSECSummary Sheet to record SEB actions. This summary sheet is for
       use of the EXECSEC and has been a very effective monitoring tool to ensure that an SEB the sole
                                                                                                  action
       is taken on every proposal , excluding duplicates. Another tool is the computer database. The
       technical and business review forms , technical and business sponsor evaluation worksheets
       minutes are used for documentation purposes and not for "                                   , and
                                                                  tracking " purposes. For example , the
..   ,. "
       " -




              SEB minutes are not used as a tracking tool but rather to record the official minutes and SEB
              decisions on proposals. We recommend that this paragraph be revised or deleted.

             Page 12 , first complete paragraph , second sentence , should be revised to change "
                                                                                                  12" to "5" as
             discussed previously in this response. Additionally, the third sentence should be revised to
             change "the other two components of the three-step system " to more ~ppropriately read "
                                                                                                         other
             fonns of documentation.

             Page 12 ,section VI. Ranking and Selection Practices Were Adequate, first paragraph states
             that "NIST had $225 million available for renewal of prior year cooperative agreements and new
             awards under the fiscal year 1999 A TP competition. " This sentence is
                                                                                      misleading because $225
             million was ATP' s entire FY 1997 appropriated funding level which includes salaries and
             expenses , arid other object classes categories. This paragraph should be revised accordingly.

             Page 13 , section VII. ATP Cooperative Agreements and
                                                                          Award Renewals Were Improperly
             Categorized , reports minor clerical errors in F AADS reporting perfonned by the NIST Grants
             Office. NIST will take appropriate action to correct these findings and ensure that F
                                                                                                     AADS
             reporting is accurately reported in the future.

             Page 13 , section VIII. Recommendation , states "
                                                                  . . . that the ATP Director ensure. . . n This
             should be revised to more accurately read " . . . that the NIST Director ensure. . .
                                                                                                  " as the NIST
             Grants Office operations are not under the purview of the A TP Director.

             Again thank you for the opportunity to review and provide comments on the subject draft audit.
             Any questions concerning this response should be directed to Barbara Lambis at 301-
                                                                                                 975-4447.
             cc: Raymond G. Kammer
                  Johnnie Frazier
                 Linda BiImes
                 Sonya G. Stewart
                 Susan Sutherland
                 Marilyn Khan
                 Jorge Urrutia
